          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection


       Broadcasting 

   Board of Governors 

 Operations in Afghanistan


   Report Number ISP-IB-10-48, March 2010




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                       SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED





                                TABLE OF CONTENTS

SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

RADIO AZADI (RADIO FREE AFGHANISTAN). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

VOICE OF AMERICA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

OPERATIONAL ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

RELATIONSHIP WITH THE EMBASSY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





                         SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED





                                          SCOPE


         The Ofﬁce of Inspector General (OIG) conducted a limited inspection of the
     Broadcasting Board of Governors (BBG) operations in Kabul, Afghanistan. The
     inspection took place on October 29, 2009, in conjunction with an inspection of
     Embassy Kabul. Because of security concerns, this was a limited-scope inspec-
     tion. The OIG team visited the news bureaus in Kabul to look at local issues and
     operations. The inspection did not include a detailed look at BBG’s Pashto border
     region broadcasting effort, which was covered in a previous report, Review of Voice of
     America’s Deewa Radio Journalistic Controls; (ISP-IB-09-67, July 2009).




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   1 .


                          SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





2 .   OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                                      CONTEXT


         U.S. international broadcasting entities in Kabul play an important role in report-
     ing the news in a country where the local media are still in the development stage.
     They serve as facilitators of discussions among the Afghans themselves on impor-
     tant issues affecting the future of their nation, thus helping to build civil society.

          BBG has two colocated ofﬁces in Kabul. The largest is the Radio Free Europe/
     Radio Liberty (RFE/RL) bureau for Radio Azadi, the local name for Radio Free
     Afghanistan. The service broadcasts 12 hours a day, from 7:00 a.m. to 7:00 p.m.,
     Kabul time, in Dari and Pashto. The second ofﬁce is the Voice of America (VOA),
     called Radio Ashna, which broadcasts on the same frequencies during the other 12
     hours of the day, from 7:00 p.m. to 7:00 a.m., forming a continuous block. VOA
     also broadcasts a daily, one-hour television program. The two ofﬁces occupy a villa-
     type compound located in the fading but comparatively upscale Wazir Akbar Khan
     neighborhood, approximately 15 minutes’ drive from the Embassy. VOA rents space
     from RFE/RL, which provides services for the entire compound, such as security,
     Internet, maintenance, and cleaning services.

          BBG is the number one broadcaster in the country, foreign or domestic, mea-
     sured by total audience, and the most important source of news, according to survey
     data. Preliminary results from the latest survey, conducted in late 2009 by Inter-
     Media, indicate that BBG’s combined weekly reach in any language is 65 percent
     of Afghan adults over 15 (the number who listen at least once a week). The survey
     found that Radio Azadi, VOA, and the British Broadcasting Corporation (BBC) are
     statistically tied as the three most popular radio stations in Afghanistan, with weekly
     audiences of 50 percent, 50 percent, and 52 percent respectively. (VOA reaches
     41 percent via radio and 18 percent weekly via television, for a combined reach of
     50 percent.) All of these ﬁgures represent increases from 2008, but are lower than
     or equal to the results found in 2007. BBG noted that it expects some long-term
     decline in audience, because the local media market has grown more competitive
     in recent years, with the revival of television and the launch of local radio stations
     focusing on lighter entertainment programming.




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   3 .


                          SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





4 .   OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





               RADIO AZADI (RADIO FREE
                    AFGHANISTAN)

         For Radio Azadi, 60 percent of the broadcast material is prepared in Afghani-
     stan, and 40 percent originates in Prague. At the top of the hour, Kabul broadcasts
     3.5 minutes of live news. Radio Azadi broadcasts three call-in shows per week – the
     ﬁrst in Afghanistan to be broadcast without censorship. The shows cover topics like
     health and politics. The guests are in Kabul, while the panelists and moderator are
     in Prague. The callers are from all over Afghanistan, as well as the border areas of
     Pakistan, Saudi Arabia and the Middle East, and the United States. In August, Radio
     Azadi hosted the Afghan presidential debate. Not all Afghans know that Radio
     Azadi is U.S.-funded, and the radio station does not advertise its funding sources.

         The news bureau has four radio studios: a modern, attractive one for live broad-
     casting and three smaller studios for recording. The news bureau does not broadcast
     on television, because BBG has given VOA the mandate to do television broadcast-
     ing. Television is becoming increasingly popular in Afghanistan, although it still
     reaches only a small percentage of the population.

         Radio Azadi also has a newly upgraded website in Dari and Pashto, www.azadira-
     dio.com, with a live link to the radio broadcast. The website received 100,000 hits in
     September, 60 percent of which were from Afghanistan and 40 percent from over-
     seas.

         Radio Azadi has about 110 employees in Afghanistan, including a core staff of
     35 in Kabul that includes the news bureau chief, senior editors, full-time reporters,
     technicians, and support and administrative staff. Other employees include part-time
     producers and writers and freelance reporters located around the country. All mem-
     bers of the staff, both full-time and part-time, in Kabul and elsewhere, are working
     via freelance agreements. Due to the security situation, the Kabul news bureau has
     not been audited.

         One of the problems facing Radio Azadi is the employment status of its staff
     and news bureau. RFE/RL has formally registered the Kabul bureau with the Af-
     ghan Government. However, BBG says that, because of contradictory and out-
     dated legacy employment laws in Afghanistan, RFE/RL has not yet executed with
     its Kabul bureau staff the types of employment contracts it offers in its other, more


OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   5 .


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




      developed locations, nor has it yet fully regularized the news bureau. As a result,
      the entire staff is employed via freelance contracts, including the head of the news
      bureau. As freelance employees, they do not receive beneﬁts such as health insur-
      ance or pensions; their only beneﬁt is life insurance. BBG says the net salaries for
      full-time news bureau staff members cover the cost of health care and retirement
      savings, and RFE/RL submits income tax withholding to the Afghan Government
      for the staff.

          The lack of beneﬁts, coupled with salaries that are low compared to other inter-
      national broadcasters, has caused a problem with staff retention. The news bureau
      noted that Radio Azadi has been able to recruit new, young journalists, but after they
      are trained, they go to rival international broadcasters, where they can receive better
      salaries and beneﬁts. In addition, according to Radio Azadi management, private lo-
      cal TV channels such as “Tolo” and “1” offer bureau staff higher salaries than those
      currently provided by Radio Azadi, which has led to growing problems recruiting
      qualiﬁed reporters with strong English-language skills. In the past 18 months, Radio
      Azadi lost ﬁve star reporters, who were lured away for double the pay. Other impor-
      tant news bureau positions are similarly vulnerable: Radio Azadi also nearly lost a
      technician and a key administrative ofﬁcer.



         Recommendation 1: The Broadcasting Board of Governors, in coordina-
         tion with Radio Free Europe/Radio Liberty, should resolve the issues of the
         employment status of Radio Azadi bureau’s staff, and should seek ways to pro-
         vide competitive salaries and beneﬁts to the staff members in Kabul. (Action:
         Broadcasting Board of Governors)




6 .      OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                              VOICE OF AMERICA

          The VOA ofﬁce, located in a second building on the same compound, produces
     both radio and television programs. The work space is cramped, especially the small
     room from which television broadcasts originate. Nonetheless, the current VOA
     facilities are better than the previous facilities, which are described in a 2006 OIG
     report (ISP-IB-06-02, February 2006).

         The VOA ofﬁce in Kabul does not have the status of a news bureau within
     VOA, because there is no central news correspondent based there; the Islamabad
     bureau covers Afghanistan. This means that the entire ten-person staff, including
     the head of the ofﬁce, have the status of contractors, and the ofﬁce does not have
     authority to make its own decisions on a number of matters. They have developed
     adequate workarounds, but the situation poses challenges. For example, since the
     Kabul ofﬁce staff members are not government employees, they do not have the
     authority to write a letter of introduction to the Afghan Government to introduce a
     new colleague; that has to be done by the Islamabad bureau.

         In addition to radio broadcasts, VOA has a one-hour television show (30 minutes
     in Dari, and 30 minutes in Pashto) six days a week, through Radio-Television Af-
     ghanistan. Participants include ministers, politicians, students, and other local lumi-
     naries. The show itself comes from Washington, with ﬁve or six minutes broadcast
     from Kabul – out of a small room into which the staff has managed to squeeze the
     equipment, the backdrop, and the guests’ chairs. New research data indicate that this
     program is reaching a weekly audience of 18 percent, up from 12 percent in 2008.
     The same survey indicated that, of the total VOA audience, 64 percent listened to
     VOA radio only, 19 percent watched VOA TV (called TV Ashna) exclusively, and the
     remainder did both.




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   7 .


                          SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





8 .   OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                        SECURITY

        (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)    .




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   9 .


                          SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED





10 .   OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                           OPERATIONAL ISSUES

          IBB maintains one AM transmitter and eight FM transmitters in Afghanistan.
     Five of the FM transmitters broadcast Radio Azadi and VOA programming; the
     other three carry VOA’s Radio Deewa and will soon carry RFE/RL’s Radio Mashaal,
     both broadcasting in Pashto to the border regions in Pakistan and Afghanistan.
     These transmission systems belong to the IBB, but they are located on Afghan Gov-
     ernment land and are maintained by Afghan Government staff. Despite occasional
     maintenance problems due to lack of spare parts, the AM transmitter is strong (400
     kw) and reaches the whole country. However, FM is increasingly popular in Afghani-
     stan because it is clearer. FM transmitters have a very limited range in the mountain-
     ous country. Five FM transmitters are not nearly enough to reach the entire country;
     by comparison, Britain’s BBC has more than 20 FM transmitters. BBG also has
     received requests from various elements within the Embassy that the number of
     FM transmitters be increased. IBB has developed a list of 18 possible locations,
     but BBG reported that implementation of an expanded FM network depends on
     the availability of funding. Each new FM transmitter costs approximately $300,000
     because they require generators, due to the unreliable power supply.

          U.S. military and Department of State strategic communications plans call for
     building secure cell phone and radio towers that could also house FM transmitters
     on forward bases, but these plans do not appear to have been coordinated with IBB’s
     efforts to expand its FM reach. However, BBG says it has been exploring “noncon-
     ventional” methods to increase broadcast coverage, including discussions with the
     Department of Defense.



        Recommendation 2: The International Broadcasting Bureau should continue
        to push forward with efforts to expand FM coverage in Afghanistan, and it
        should determine whether the U.S. military’s planned cell phone towers could
        be used by Broadcasting Board of Governors broadcasters. (Action: IBB)


         A thorny issue that has hindered broadcast expansion was the status of the 200
     kw AM transmitter that the U.S. Government built nearly two years ago near Khost
     in eastern Afghanistan, in order to transmit radio programs in Pashto to the bor-
     der regions of Afghanistan and Pakistan. At the time of the inspection, BBG had


OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   11 .


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       not been able to turn the transmitter on yet, because elements within the Afghan
       Government were holding up ofﬁcial approval, due to issues of broadcast content
       control. Since that time, following Afghan Governmental changes, Radio-Television
       Afghanistan has signed a modiﬁcation to the operation and maintenance contract
       with BBG, and it will operate and maintain the new site for BBG.

           BBG also broadcasts into Afghanistan via shortwave radio from transmitters
       located elsewhere in the world. People in the mountainous areas still listen to short-
       wave broadcasts, and small, Chinese-made radios capable of receiving AM, FM, and
       shortwave are affordable and available in the markets. As a promotion, from 2007 to
       2008, Radio Azadi bought and distributed 5,000 inexpensive radios with the station’s
       logo and frequency imprinted on them. In 2009, RFE/RL bought 700 hand-crank
       radios instead, which are more expensive but also more useful. In view of strategic
       communications plans being developed by Embassy Kabul and the Ofﬁce of the
       Special Representative for Afghanistan and Pakistan that call for measures to increase
       the Afghan people’s access to objective news from various sources, the OIG team
       has made informal recommendations to increase the number of giveaway promo-
       tional radios, which would serve a larger purpose.




12 .      OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                 RELATIONSHIP WITH THE
                       EMBASSY

         Relations between the BBG entities and the U.S. Embassy in Kabul are generally
     cordial. Radio Azadi is satisﬁed with the services received from the Embassy, which
     represents the news bureau on issues involving the Afghan Government. The Em-
     bassy press ofﬁce treats Radio Azadi and VOA as it does other news organizations,
     arranging interviews and providing information. The news bureaus are mindful of
     the need to maintain their journalistic independence from the Embassy, in order to
     preserve their credibility.

         The BBG entities also rely on Embassy support for some shipments. However,
     the proper procedures for the notiﬁcation, handling, and conveyance of such ship-
     ments have not been communicated to all staff members involved, as is evidenced
     by an incident that occurred while the OIG team was in Kabul. IBB shipped some
     spare parts for transmitters in Afghanistan to the Embassy in Kabul via the diplo-
     matic pouch, addressed to PAO/IBB. The IBB contractor was supposed to pick
     up the crates and take the parts to the transmitter sites. However, the public affairs
     section was not expecting this shipment and was unsure what to do with it when it
     arrived. Since the public affairs section experiences a complete or virtually complete
     turnover in its American staff every summer, the ofﬁcers involved had not handled
     an IBB shipment before.



        Recommendation 3: Embassy Kabul, in coordination with the International
        Broadcasting Bureau, should develop written standard operating procedures
        for processing International Broadcasting Bureau shipments, including clear
        instructions about notiﬁcation and handling. (Action: Embassy Kabul, in co-
        ordination with IBB)




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   13 .


                          SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED





14 .   OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





           FORMAL RECOMMENDATIONS

     Recommendation 1: The Broadcasting Board of Governors, in coordination with
       Radio Free Europe/Radio Liberty, should resolve the issues of the employment
       status of Radio Azadi bureau’s staff, and should seek ways to provide competitive
       salaries and beneﬁts to the staff members in Kabul. (Action: Broadcasting Board
       of Governors)

     Recommendation 2: The International Broadcasting Bureau should continue to
       push forward with efforts to expand FM coverage in Afghanistan, and it should
       determine whether the U.S. military’s planned cell phone towers could be used by
       Broadcasting Board of Governors broadcasters. (Action: IBB)

     Recommendation 3: Embassy Kabul, in coordination with the International
       Broadcasting Bureau, should develop written standard operating procedures for
       processing International Broadcasting Bureau shipments, including clear instruc-
       tions about notiﬁcation and handling. (Action: Embassy Kabul, in coordination
       with IBB)




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   15 .


                          SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED





16 .   OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





        INFORMAL RECOMMENDATIONS


     Informal recommendations cover operational matters not requiring action by orga-
     nizations outside the inspected unit and/or the parent regional bureau. Informal
     recommendations will not be subject to the OIG compliance process. However, any
     subsequent OIG inspection or on-site compliance review will assess the mission’s
     progress in implementing the informal recommendations.

      A draft strategic communications plan for Afghanistan, written by representatives
     of the Ofﬁce of the Special Representative for Afghanistan and Pakistan, the Bureau
     of South and Central Asian Affairs’ public diplomacy ofﬁce, and Embassy Kabul,
     calls for distributing 50,000 radio sets in areas that are key to the counterinsurgency
     strategy. Meanwhile, given limitations in its marketing budget, RFE/RL has reduced
     the number of promotional radios distributed by Radio Azadi because of a switch to
     the more useful but expensive hand-crank radios.

     Informal Recommendation 1: The Broadcasting Board of Governors should
     make further efforts to increase the number of free radios distributed as a way of
     promoting Radio Azadi.

     Informal Recommendation 2: The Broadcasting Board of Governors should
     consult with the Bureau of South and Central Asian Affairs and the Ofﬁce of the
     Special Representative for Afghanistan and Pakistan about the feasibility of printing
     Radio Azadi’s logo and frequency on these radios, as part of the strategic communi-
     cations plan.




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   17 .


                          SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED





18 .   OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010


                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                                 ABBREVIATIONS

     BBC                        British Broadcasting Corporation
     BBG                        Broadcasting Board of Governors
     IBB                        International Broadcasting Bureau
     OIG                        Ofﬁce of Inspector General
     Radio Azadi                Radio Free Afghanistan
     RFE/RL                     Radio Free Europe/Radio Liberty
     VAO                        Voice of America




OIG Rpt. No. ISP-IB-10-48, Broadcasting Board of Governors Operations in Afghanistan, March 2010   19 .


                          SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
